           U.S. Department of
                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement -                       Date:     February 27, 2004
           Department of Transportation Fiscal Year 2004
           Financial Statements
                                                                 Reply to
  From:                                                           Attn of:   JA-20 x1496
           Theodore Alves
           Assistant Inspector General for Financial
            and Information Technology Audits

    To:    See Distribution

           The Office of Inspector General (OIG) is initiating its audit of the Department of
           Transportation (DOT) Fiscal Year (FY) 2004 Financial Statements.

           Our audit objectives are to (1) determine whether principal DOT financial
           statements and accompanying notes are presented fairly, in all material respects, in
           conformity with U.S. generally accepted accounting principles; (2) assess internal
           controls over financial reporting, including safeguarding assets; (3) report
           identified instances of non-compliance with selected laws and regulations that
           could have a direct and material effect on the DOT financial statements or that
           have been specified by the Office of Management and Budget, (4) determine
           whether DOT’s financial management systems substantially comply with the
           Federal Financial Management Improvement Act; (5) assess whether financial
           information in the Management Discussion and Analysis is materially consistent
           with the information in the principal DOT financial statements; (6) assess whether
           internal controls ensured the existence and completeness of reported data
           supporting performance measures; and (7) determine whether supplementary and
           stewardship information is consistent with management representations and the
           DOT financial statements.

           In addition to the FY 2004 DOT Consolidated Financial Statements, component
           statements for the Federal Aviation Administration and Highway Trust Fund will
           be audited by independent external auditors subject to OIG oversight. All other
           work will be performed by OIG staff.

           The audit opinions on the FY 2004 DOT consolidated financial statements are due
           to the Office of Management and Budget (OMB) November 15, 2004. To meet
                                                                            2
this earlier date, special management attention will be needed to ensure that
reliable financial statements are prepared on time. If you have any questions,
please call me at 202-366-1496 or Ronald Brown, Project Manager at
410-962-0699.
                                        #

Distribution:

Chief Financial Officer, Department of Transportation
Chief Financial Officer, Federal Aviation Administration
Chief Financial Officer, Federal Highway Administration
Chief Financial Officer, Federal Railroad Administration
Chief Financial Officer, National Highway Traffic Safety Administration
Chief Financial Officer, Federal Transit Administration
Chief Financial Officer, Maritime Administration
Chief Financial Officer, Research and Special Programs Administration
Chief Financial Officer, Federal Motor Carrier Safety Administration
Director, Bureau of Transportation Statistics
Director of Finance and Administration, St. Lawrence Seaway Development
 Corporation

cc: Martin Gertel
